<html>
<title> - SEXUAL HARASSMENT AT THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                       SEXUAL HARASSMENT AT THE

                      DEPARTMENT OF THE INTERIOR

=======================================================================

                           OVERSIGHT HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, October 30, 2019

                               __________

                           Serial No. 116-28

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
          
                             ______
                         

                U.S. GOVERNMENT PUBLISHING OFFICE 
 38-652                  WASHINGTON : 2020         
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                           TJ COX, CA, Chair
              LOUIE GOHMERT, TX, Ranking Republican Member

Debbie Dingell, MI                   Paul A. Gosar, AZ
A. Donald McEachin, VA               Mike Johnson, LA
Michael F. Q. San Nicolas, GU        Jenniffer Gonzalez-Colon, PR
Raul M. Grijalva, AZ                 Rob Bishop, UT, ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 30, 2019......................     1

Statement of Members:

    Cox, Hon. TJ, a Representative in Congress from the State of 
      California, prepared statement of..........................    33
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     1
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     3

Statement of Witnesses:

    Combs, Susan, Assistant Secretary for Policy, Management, and 
      Budget, U.S. Department of the Interior, Washington, DC....     8
        Prepared Statement of....................................    10
        Questions submitted for the record.......................    11
    Feldblum, Chai, Partner and Director of Workplace Culture 
      Consulting, Morgan, Lewis & Bockius LLP, Washington, DC....    13
        Prepared Statement of....................................    15
        Questions submitted for the record.......................    18
    Greenblatt, Mark, Inspector General, Office of the Inspector 
      General, U.S. Department of the Interior, Washington, DC...     5
        Prepared Statement of....................................     6
        Questions submitted for the record.......................     8
                                     



    OVERSIGHT HEARING ON SEXUAL HARASSMENT AT THE DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                      Wednesday, October 30, 2019

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. TJ Cox 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Cox, Dingell, San Nicolas, and 
Gohmert.

    Mrs. Dingell [presiding]. Good morning. The Subcommittee on 
Oversight and Investigations will now come to order.
    The Subcommittee on Oversight and Investigations is meeting 
today to hear testimony on Sexual Harassment at the Department 
of the Interior.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.

   STATEMENT OF THE HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. The Department of the Interior has a sexual 
harassment problem, and the problem isn't new. For decades 
women and men in our national parks, refuges, and other public 
lands and offices have not been given the protections they need 
to do their work free from harm. As we sit here, mere weeks 
after the second anniversary of #MeToo, addressing this problem 
is more critical than ever.
    In 2016, the Inspector General released a report that 
documented approximately 15 years of systemic sexual harassment 
and misconduct in the Grand Canyon National Park. After that 
report was released, it was clear that this issue could no 
longer fall to the wayside. Interior needed to take major 
action.
    The Obama administration sent an anonymous survey out to 
all of its approximately 70,000 employees, an unprecedented 
effort in the Federal Government. And I do want to point out 
that this is 15 years. It is Republican and Democratic 
administrations.
    The survey was designed to get an idea of whether this was 
a problem limited to Grand Canyon and the Park Service, or 
whether it was more widespread.
    The findings were alarming: over one-third of all Interior 
employees had been harassed in some way in the past year, and 
nearly 1 out of every 10 had been sexually harassed, including 
both men and women.
    These numbers are shocking on their own, but the survey dug 
even deeper. It found that three-quarters of employees who had 
been harassed chose not to file a complaint or report. They 
gave several reasons, but one of the top reasons was that they 
didn't think anything would be done about it. And this is 
simply unacceptable.
    Both men and women deserve a workplace in which they feel 
safe, both physically and psychologically, and in which they 
believe something will be done if they are put in harm's way.
    Fortunately, this Administration has taken action, for 
which you deserve credit. Since the survey was released, 
Interior has revamped its policy, instituted new training, and 
required each bureau to draft a regularly updated action plan, 
among other efforts. And these were all steps in the right 
direction.
    But this summer, the Inspector General released a report 
which highlights ways in which Interior can further strengthen 
those efforts. We look forward to hearing more about those 
needed changes, and how Interior will dedicate the resources 
necessary to make those changes.
    But we also need to have a frank conversation today. While 
the right policies, procedures, and training are obviously 
important, they are only one piece of the puzzle. As we have 
heard from experts over and over again, addressing sexual 
harassment begins, first and foremost, with effective 
leadership.
    Leadership must not only say they are committed; they must 
show that they are. They need to cultivate a culture that 
promotes diversity and inclusivity across all levels of the 
workplace, but especially in top leadership and management. 
They need to engage those who have been affected by harassment 
in helping to craft the organization's solutions to the 
problem.
    And perhaps most importantly, leadership needs to earn the 
trust of its workforce. Employees need to believe that their 
leaders will support them, stand up for them, and hold 
wrongdoers accountable. And, unfortunately, I fear that is not 
the case at Interior.
    This Administration has been marked by secrecy and 
distrust. We have seen time and time again, both in the press 
and in the testimony before this Committee, accounts of 
employees being manipulated, intimidated, and ignored.
    And I am going to say, as a woman herself, who was harassed 
during her 30-year career at a large institution, because I 
didn't think leadership did care or would step up, I thought I 
would pay a price if I opened my mouth, and that is what we are 
trying to change across the country. And Interior has that 
responsibility.
    Most recently, the Bureau of Land Management abruptly 
announced it was moving its headquarters out West. Reports of a 
closed-door meeting with affected employees shows that not one 
of the employees supported this move. One employee even said, 
``morale is as low as I have ever seen.''
    At a Full Committee hearing this summer, a whistleblower 
from Interior testified that this Administration has, 
``sidelined scientists and experts, flattened the morale of 
career staff, and, by all accounts, is bent on hollowing out 
the agency.''
    A mass reassignment of senior employees in 2017 created a 
culture of fear for stepping out of line.
    None of this sounds like leadership that is committed to 
earning the trust of its workforce. And if workers do not trust 
their leaders, how do they feel that they are valued?
    How can we expect them to trust that their leaders will 
protect them in their most vulnerable moments?
    Making public statements is easy, but making real change in 
addressing an issue is challenging. Such a difficult issue is 
sexual harassment. It takes trust, engagement, and real 
leadership. We hope Interior's leadership will take that 
message to heart today.

    With that, I now recognize my dear colleague, Ranking 
Member Gohmert, for his opening statement.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. And I thank my dear friend, Chair Dingell. I 
thank the witnesses for being here today.
    This is, obviously, a very important topic, and it 
certainly is to you, or you wouldn't have taken the steps that 
you did, and you wouldn't be here today. So, thank you for 
that.
    I know we all agree everyone deserves a place they can work 
that is harassment free. Sexual harassment shouldn't be 
tolerated. And we all want the Department of the Interior best 
equipped to address allegations and address any misconduct.
    For decades, workplace harassment at the Department was 
permitted to fester far too long. In the past, when harassment 
was reported, investigations into those allegations were 
mismanaged and poorly addressed. And, as my friend, the Chair, 
has indicated, this has gone across Republican and Democratic 
administrations without being properly addressed.
    I am encouraged that under the Trump administration, the 
Department has finally taken concrete steps to implement 
changes to address these long-standing issues. Their efforts 
are making a positive difference for our Federal employees.
    To begin, the Department implemented its first 
comprehensive policy on how to prevent and eliminate harassing 
conduct. This policy was developed to meet the criteria to be a 
model anti-harassment program laid out by the Equal Employment 
Opportunity Commission.
    In addition to implementing new policies, each of the 
Department's bureaus developed action plans on how to ensure a 
harassment-free workplace. Each of these plans is uniquely 
tailored to the needs of the individual bureau.
    But the Department did not just update its policies. Under 
Secretary David Bernhardt and Assistant Secretary Susan Combs' 
leadership, the Department took action to ensure employees 
understand the new policies, and know how to report workplace 
harassment if they experience it or witness it.
    And as the Chair mentioned, it is not enough to have those 
policies. All employees must feel that they can report real 
harassment, and something will be done, it won't just subject 
them to further harassment.
    So, anyway, individuals are finally being held accountable 
for their inappropriate behavior. In December 2017, the 
Department, under the Trump administration, announced the 
termination of four senior department officials due to 
workplace misconduct, including harassment. The following year 
more than 1,500 employees were fired, suspended, or reprimanded 
for harassment or misconduct.
    What we have now is a Department where you can believe it 
when they say harassment is not tolerated. Every employee 
deserves to work in an environment that is harassment free, and 
the Department has shown a steadfast commitment now to 
continuing to address this issue that plagued it for so long in 
the past.
    I am especially glad we are joined today by Assistant 
Secretary Susan Combs, a Texan, and also a friend, who did a 
great job while she was working in the state government, and 
who is now leading the efforts to combat harassment and 
transform workplace cultures across the Department. I look 
forward to hearing more about her plans to utilize the newly 
established Workplace Culture Transformation Advisory Council 
to achieve these goals.
    I know Assistant Secretary Combs, and I know that she is 
eminently qualified to lead these efforts. Her guidance is an 
invaluable asset to the Department. The changes that have 
already occurred under Secretary Combs' leadership are having a 
real impact.
    We can see the positive results of the Department's work. 
After the Department's policy changes, the percentage of 
employees who have experienced some form of inappropriate 
behavior in the previous year dropped from 35 percent in 2017 
to 18 percent in 2019. That is, obviously, still too high, but 
at least it is moving in the right direction.
    Work remains to be done, but we are pleased with the work 
that you have done, we are pleased you are here, and we are 
pleased the Department's commitment to a harassment-free 
workplace has already resulted in improvements, and future 
efforts will continue.
    We look forward to hearing what you have to say here today. 
Thank you.

    Mrs. Dingell. Thank you, my friend. I don't see Mr. Bishop, 
so I am going to introduce our witnesses.
    Mr. Mark Greenblatt is the Inspector General in the U.S. 
Department of the Interior, and has been doing good work on 
this.
    Ms. Susan Combs is the Senior Advisor exercising the 
authority of the Assistant Secretary for Policy, Management, 
and Budget at the U.S. Department of the Interior and, as we 
have learned, is from Texas.
    And Ms. Chai Feldblum is the Partner and Director of 
Workplace Culture Consulting at Morgan, Lewis & Bockius LLP.
    Under our Committee Rules, oral statements are limited to 5 
minutes, but your entire statement will appear in the hearing 
record.
    The lights in front of you will turn yellow when there is 1 
minute left, and then red when time has expired.
    After the witnesses have testified, Members will be given 
the opportunity to ask you questions.
    With that, the Chair now recognizes Mr. Mark Greenblatt.

STATEMENT OF MARK GREENBLATT, INSPECTOR GENERAL, OFFICE OF THE 
INSPECTOR GENERAL, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, 
                               DC

    Mr. Greenblatt. I thank the Chair and the Ranking Member 
and Committee members for the opportunity to appear before you 
today.
    I stated throughout my confirmation process that helping to 
eradicate the Department's ongoing sexual harassment problem 
would be a priority for me as Inspector General. So, it is 
fitting that my first testimony as the IG is about this 
important challenge, and the role the IG can play in improving 
the culture at the Department.
    The IG's Office has taken a leadership role in identifying 
these problems over the last 4 years. In 2016, the OIG 
published a watershed investigative report about widespread 
sexual harassment at the Grand Canyon. The investigation 
revealed that Park Service personnel had engaged in a long-term 
pattern of sexual harassment, and fostered a hostile work 
environment. In all, we identified 35 individuals who endured 
or witnessed mistreatment.
    The report also highlighted a disturbing absence of strong 
leadership, which allowed the harassment to continue unchecked 
for 15 years.
    The Grand Canyon report was a wake-up call, and that 
investigation led to others. The IG's Office has opened 22 
sexual harassment investigations since that case in 2016. We 
have uncovered sexual misconduct in parks as large as 
Yellowstone and as small as Canaveral National Seashore, in a 
remote BIA office and at the DOI headquarters, in locations 
stretching across the country, from Georgia to California, and 
involving behavior ranging from disturbing, inappropriate 
touching, to outright criminal sexual assault.
    The Department, to its credit, has taken disciplinary 
action against 35 subjects as a result of OIG investigations 
and agency referrals.
    The Department also took steps to change the culture. Just 
months after we published our Grand Canyon investigation, 
Secretary Jewell created the Employment and Labor Law Unit, and 
released a new workplace conduct policy. DOI later conducted a 
comprehensive work environment study, and Secretaries Zinke and 
Bernhardt took a number of actions to further address the 
problem, including issuing an anti-harassment policy.
    We have recently released our evaluation of the DOI's 
efforts to address sexual harassment. We found that the DOI has 
taken meaningful steps to address sexual harassment by 
investigating complaints, issuing policies, requiring training, 
conducting surveys, establishing an advisory hotline, and 
developing a tracking system.
    We also found, however, that there is more work to be done. 
With that in mind, we made 11 recommendations in this 
evaluation; the Department has resolved and implemented 3 of 
them, and has implementation plans for the remaining 8.
    We are encouraged by their response. These improvements 
should foster a safer working environment for all DOI 
employees.
    As the Department continues its anti-harassment efforts, 
the OIG staff and I will remain committed to this issue. We 
currently have eight active cases.
    In fact, just last night, one of my special agents called 
from an Oregon courthouse, reporting that a Fish and Wildlife 
supervisor had pled guilty to five counts, including sex abuse, 
harassment, and felony coercion. Due to our investigation, that 
offender is now in jail. And when he is released on probation, 
he will be a registered sex offender, banned from any contact 
with the victim.
    In addition to our ongoing investigative work, next month 
we will release the Top Management Challenges Report, which 
will include a section on workplace, culture, and human capital 
that highlights how the negative effects of harassment are 
widespread and sap productivity and trust out of an 
organization.
    The OIG is exploring additional ways to add value in the 
future, and we are considering new inspections and evaluations 
as we create our 2020 audit plan.
    In closing, I commit to you that the OIG, under my watch, 
will continue to aid the Department in its efforts to foster a 
safe work environment, free of sexual harassment and assault.
    And to all the survivors and witnesses listening today, 
please come forward, either to the OIG hotline or to the 
departmental avenues available to you. Our investigators take 
this work to heart, and understand that this is a very personal 
issue.
    In fact, the supervisor of a survivor recently wrote to us, 
``I cannot say enough positive things about the OIG agents or 
the way they interacted with both myself and the supervisor. 
Their professionalism, tact, and responsiveness were eclipsed 
only by the gentle compassion and care with which they 
interacted with the survivor.'' We strive to have that impact 
on every case.
    Thank you for your time, and I look forward to answering 
any questions you may have.

    [The prepared statement of Mr. Greenblatt follows:]
     Prepared Statement of Mark Lee Greenblatt, Inspector General, 
                       Department of the Interior
    Chairman Cox, Ranking Member Gohmert, and Committee members, thank 
you for this opportunity to appear before you today. I stated 
throughout my confirmation process that helping to eradicate the 
Department of the Interior's ongoing sexual harassment problem would be 
a priority for me. Therefore, it is fitting that my first testimony as 
Inspector General is about this important challenge, and the role the 
Office of Inspector General (OIG) can play in improving the culture at 
the Department of the Interior.
    The OIG has taken a leadership role in identifying these problems 
over the last 4 years. In 2016, the OIG published an investigative 
report about widespread sexual misconduct at the Grand Canyon. That 
investigation sounded the alarm: there was a deep problem here. The 
investigation revealed that Park Service personnel had engaged in a 
long-term pattern of sexual harassment and fostered a hostile work 
environment in the Grand Canyon River District. In all, we identified 
almost three dozen individuals who endured or observed mistreatment 
ranging from verbal harassment to sexual assault at the Grand Canyon. 
Our investigation also highlighted a disturbing absence of strong 
leadership, which allowed the harassment to continue unchecked for 15 
years.
    The Grand Canyon investigation led to others. In total, the OIG has 
opened 22 sexual harassment investigations since 2016. We have 
uncovered sexual misconduct in parks as large as Yellowstone, and as 
small as Canaveral National Seashore; in a remote Bureau of Indian 
Affairs office and at the DOI headquarters; in locations stretching 
across the country from Georgia to Oregon; and involving behavior 
ranging from disturbing, inappropriate touching to outright sexual 
assault.
    The Department--to its credit--has taken disciplinary action 
against 35 subjects as a result of OIG investigations and agency 
referrals. Sixteen of those 35 employees are no longer in Government 
service because they were removed, they resigned, or they retired while 
under investigation. The Department also took steps to change the 
culture. Just months after we published our Grand Canyon investigation, 
Secretary Jewell created an Employment and Labor Law Unit and released 
a new anti-harassment policy. DOI later conducted a Work Environment 
Survey, and Secretary Bernhardt released a 2017 supplemental policy 
establishing DOI training requirements.
    As part of the OIG's ongoing mission to monitor the Department's 
progress, we recently released our evaluation of the DOI's efforts to 
address sexual harassment. We found that the DOI has taken meaningful 
steps to address sexual harassment by investigating complaints, issuing 
policies, requiring training, conducting surveys, establishing an 
advisory hotline, as well as developing a tracking system. All these 
measures aim to provide a safe work environment, encourage victims to 
report incidents, and improve management's preparation to address and 
investigate allegations brought to their attention.

    We also found, however, there is more work to do. As we state in 
our evaluation, the DOI has an opportunity to improve sexual harassment 
investigations that it conducts or contracts:

  1.  Reports of investigation from the Department's investigators or 
            their contractors do not always contain the necessary 
            information for decision makers and advisors to make 
            comprehensive decisions about potential corrective action. 
            As a result, no action is taken, victims never see the 
            resolution they deserve, and those who should be held 
            accountable continue on without repercussions.

  2.  The DOI and its bureaus are not consistently tracking the 
            timeliness of investigations.

  3.  Investigation costs may prevent employees from reporting an 
            incident. The cost impact of an unforeseen, unbudgeted 
            investigation on smaller offices can impact their ability 
            to fund other activities such as training, travel, and 
            awards.

    We made 11 recommendations in this evaluation, the Department has 
resolved and implemented 3 of them, and has implementation plans for 
the remaining 8.\1\ By making these improvements, the DOI could foster 
a safer working environment that seeks to reduce incidents of sexual 
harassment and improperly handled sexual harassment complaints.
---------------------------------------------------------------------------
    \1\ In addition to the 11 recommendations, we believe that the DOI 
should consider (1) including strategies to specifically address the 
U.S. Equal Employment Opportunity Commission's organizational risk 
factors in bureau action plans; and (2) formalizing the sharing of 
information about prior or pending allegations between bureaus.
---------------------------------------------------------------------------
    As the Department continues its anti-harassment efforts, the OIG 
will remain committed to this issue. We currently have eight active 
cases and we will report on those upon completion. In addition, next 
month we will release our Top Management Challenges report, which will 
include a ``Workplace Culture and Human Capital'' section that 
highlights how the negative effects of harassment are widespread and 
sap productivity and trust out of an organization.

    The OIG is exploring additional ways to add value in the future. 
For instance, the OIG is considering:

    <bullet> Verifying whether the Department completed and tracked the 
            mandatory training of supervisors--especially in its remote 
            locations.

    <bullet> Conducting bureau-level inspections or evaluations to 
            identify whether and to what extent bureaus have 
            implemented their formal action plans to address and 
            prevent sexual harassment. This could include focusing on 
            specific offices/locations that are at risk under EEOC-
            identified risk factors for harassment.

    <bullet> Reviewing the misconduct tracking system (I-MART) to 
            determine its effectiveness regarding what data is 
            collected, its reporting features, the quality of the data, 
            and whether it is consistently being used (as required).

    <bullet> Tracking the continued expansion of the Employment and 
            Labor Law Unit and its dedicated specialists.

    I commit to you that the OIG, under my watch, will continue to aid 
the Department in its efforts to foster a safe work environment free of 
sexual harassment and assault. And to all survivors and witnesses who 
may be listening today, please come forward through the OIG hotline or 
the departmental avenues available to you. OIG investigators take this 
work to heart and understand that this is a very personal issue. In 
fact, the supervisor of a survivor in one of our cases wrote:

        I cannot say enough positive things about [OIG agents] or the 
        way they interacted with both myself and [the survivor]. Their 
        professionalism, tact, and responsiveness were eclipsed only by 
        the gentle compassion and care with which they interacted with 
        [the survivor].

We strive to have that impact on every case.

    Thank you for your time, and I look forward to answering any 
questions you may have.

                                 ______
                                 

   Questions Submitted for the Record to Mark Greenblatt, Inspector 
                General, U.S. Department of the Interior
                     Questions Submitted by Rep Cox
    Question 1. Of the 12 organizational risk factors laid out in the 
Task Force report, which are most apparent--and most urgently in need 
of redress--at DOI?

    Answer. The scope of our evaluation's fieldwork did not include a 
DOI-wide assessment of the 12 organizational risk factors. Past 
investigative findings and anecdotal evidence collected during our 
evaluation's fieldwork, however, suggest that the following 
organizational risk factors, as defined in the EEOC report, have 
contributed to cases of sexual harassment:

    <bullet> Geographically isolated workplaces

    <bullet> Decentralized workplaces

    <bullet> Workplaces with significant power disparities, 
            specifically, gendered power disparities

    <bullet> Workplaces where some employees do not conform to 
            workplace norms

    <bullet> Workplaces that tolerate or encourage alcohol consumption

                                 ______
                                 

    Mrs. Dingell. Thank you, Mr. Greenblatt. I am going to call 
on Ms. Combs next.
    But I am going to apologize that you have been confirmed as 
Assistant Secretary. I just kind of got put in the chair here, 
so congratulations. And you are up next.

   STATEMENT OF SUSAN COMBS, ASSISTANT SECRETARY FOR POLICY, 
   MANAGEMENT, AND BUDGET, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Ms. Combs. Thank you, Chairman Dingell and Ranking Member 
Gohmert. Good morning, and thank you for holding this hearing 
on this important topic, and inviting me to update you on the 
progress that the Department has made and continues to make on 
the issue of sexual harassment.
    The Department is committed to preventing and eliminating 
all forms of harassing conduct, and to transforming our 
workplace culture so our employees feel safe, respected, and 
valued.
    In early 2017, the Department administered a work 
environment survey to all employees completed in March. The 
survey was the first of its scope done across the Department, 
and its goal was to assess workplace conditions that Interior 
employees experience, including the prevalence and context of 
all forms of harassment.
    The results of that survey were sobering. Of those 
employees who responded to the survey, 35 percent reported 
experiencing some form of harassment and/or assault-related 
behaviors in the 12 months preceding the survey.
    Several facts stood out. Over 20 percent of employees 
reported experiencing harassment based on their age; 6.5 
percent of employees reported experiencing gender-based 
harassment; another 8 percent reported experiencing sexual 
harassment.
    What was especially troubling was that 60.2 percent of 
employees who reported that they had suffered from harassment 
indicated that these events occurred more than once, and 
oftentimes the victim had to continue working with the 
harassing individual.
    Furthermore, many stated that they felt making a complaint 
did not produce any real result. Either no action was taken, or 
they were encouraged to drop the issue.
    The Secretary and the Department leadership took these 
results very seriously, and instituted a number of actions 
immediately.
    The first was the Secretary's anti-harassment policy 
statement. Then-Deputy Secretary Bernhardt directed bureau 
heads to develop formal action plans to address their bureau's 
survey results, which required quarterly reports. That same 
month the Department issued its first comprehensive policy on 
the prevention and elimination of harassing conduct to provide 
a work environment free from harassing conduct, and to hold 
employees accountable at the earliest possible stage.
    In February 2019, we created the Workplace Culture 
Transformation Advisory Council, and it is charged with 
identifying specific Department-wide programming.
    In April 2019, the Department launched an enhanced agency-
wide misconduct case tracking system, which allows Interior to 
identify trends, and to ensure that managers take action when 
harassing conduct has occurred.
    In May 2019, six Department-specific harassment-related 
questions were included for the first time in the Federal 
Employee Viewpoint Survey, FEVS. I am pleased to report that 
the recent FEVS results for 2019 showed that we are 
unquestionably making progress. For example, the percentage of 
Interior employees who reported experiencing some form of 
harassing conduct within the preceding 12 months was reduced 
from 35 percent in 2017, as reported in the Work Environment 
Survey, to 18 percent in 2019.
    In addition, the number of employees who know where to 
report harassing conduct increased from 62.3 percent to 94 
percent in 2019. Moreover, more than 80 percent of supervisors 
and managers believe they have the tools needed to promptly 
address allegations of harassing conduct, and to discipline 
individuals who engage in it.
    While this is all impressive, the July 2019 OIG evaluation 
report of the Department's efforts to address sexual harassment 
highlights that there is still work to be done.
    Let me first acknowledge and compliment the extensive work 
that the OIG undertook in this evaluation.
    In its evaluation, the OIG identified three areas for DOI 
to focus its efforts: improve sexual harassment investigations 
in terms of quality, cost, and timeliness; use a misconduct 
tracking system to monitor trends and track costs; and better 
coordinate anti-harassment training. Within these areas the OIG 
made 11 recommendations, and by the date of the final report, 
they had already resolved 3 of those.
    The Department has developed an action plan for the 
completion of the remaining recommendations. For example, we 
are now 8 months in advance on scheduling training in response 
to recommendation No. 5 regarding investigations. We have 
already launched new data fields in our misconduct tracking 
system that will provide greater transparency.
    In November, next week, we will start delivering more than 
70 sessions of bystander intervention, inter-generational 
training in strategic locations across the country. They will 
be 4 hours in duration, and be presented to in-person 
audiences.
    We continue to communicate with and train leaders at every 
level, committed to preventing and eliminating harassing 
conduct. This afternoon, in fact, I will be leaving here and 
going to address about 1,000 employees at the U.S. Geological 
Survey on actions to improve and transform the workplace 
culture.
    As an agency, we have made significant progress, but there 
is more to be done, and we look forward to continuing our 
positive progress.
    Thank you, and I look forward to answering any questions.

    [The prepared statement of Ms. Combs follows:]
  Prepared Statement of Susan Combs, Assistant Secretary for Policy, 
         Management and Budget, U.S. Department of the Interior
    Chairman Cox, Ranking Member Gohmert, good morning, and thank you 
for holding this hearing on this important topic and inviting me to 
update you on the progress that the Department has made and continues 
to make on the issue of sexual harassment. The Department is committed 
to preventing and eliminating all forms of harassing conduct and to 
transforming our workplace culture so our employees feel safe, 
respected, and valued.
    In early 2017, the Department administered a Work Environment 
Survey to all employees, completed in March. The survey was the first 
of its scope done across the Department and its goal was to assess 
workplace conditions that Interior employees experience, including the 
prevalence and context of all forms of harassment. The results of that 
survey were sobering. Of those employees who responded to the survey, 
35 percent reported experiencing some form of harassment and/or assault 
related behaviors in the 12 months preceding the survey. Several facts 
stood out: over 20 percent of employees reported experiencing 
harassment based on their age; 16.5 percent of employees reported 
experiencing gender-based harassment; and another 8 percent reported 
experiencing sexual harassment. What was especially troubling was that 
60.2 percent of employees who reported that they had suffered from 
harassment indicated that these events occurred more than once, and 
oftentimes the victim had to continue working with the harassing 
individual. Furthermore, many stated that they felt that making a 
complaint did not produce any real result--either no action was taken, 
or they were encouraged to drop the issue. The Secretary and the 
Department leadership team took these results very seriously and 
instituted a number of actions immediately. The first was the 
Secretary's Anti-Harassment Policy Statement.
    Then Deputy Secretary Bernhardt directed Bureau Heads to develop 
formal action plans to address their bureau survey results, with 
required quarterly reports. That same month, the Department issued its 
first comprehensive policy on the Prevention and Elimination of 
Harassing Conduct to provide a work environment free from harassing 
conduct and to hold employees accountable at the earliest possible 
stage.
    In February 2019, we created the Workplace Culture Transformation 
Advisory Council, and it is charged with identifying specific 
Department-wide programming.
    In April 2019, the Department launched an enhanced agency-wide 
misconduct case tracking system which allows Interior to identify 
trends and to ensure that managers take action when harassing conduct 
has occurred.
    In May 2019, six Department-specific harassment-related questions 
were included for the first time in the Federal Employee Viewpoint 
Survey (FEVS). I am pleased to report that the recent FEVS results for 
2019 show that we are unquestionably making progress. For example, the 
percentage of Interior employees who reported experiencing some form of 
harassing conduct within the preceding 12 months was reduced from 35 
percent in 2017 (as reported in the Work Environment Survey) to 18 
percent in 2019. In addition, the number of employees who know where to 
report harassing conduct increased from 62.3 percent in 2017 to 94 
percent in 2019. Moreover, more than 80 percent of supervisors and 
managers believe they have the tools needed to promptly address 
allegations of harassing conduct and to discipline individuals who 
engage in misconduct.
    While this is all impressive, the July 2019 OIG Evaluation Report 
of the Department's efforts to address sexual harassment highlights 
that there is still work to be done. Let me first acknowledge and 
compliment the extensive work that the OIG undertook in this 
evaluation. In its evaluation, the OIG identified three areas for DOI 
to focus its efforts: improve sexual harassment investigations in terms 
of quality, cost, and timeliness; use misconduct tracking system to 
monitor trends and track costs; and better coordinate anti-harassment 
training. Within these areas, the OIG made 11 recommendations; and by 
the date of publication of the final report, the Department had already 
resolved and fully implemented three of those recommendations. The 
Department has developed an action plan for the completion of the 
remaining recommendations in advance of the original timeline given. 
For example, we are implementing Recommendation #11 regarding the 
coordination of anti-harassment training opportunities 8 months ahead 
of schedule. In response to Recommendation #5 regarding investigations 
of sexual harassment claims, we have already launched new data fields 
in our misconduct tracking system that will provide greater 
transparency regarding the timeliness of investigations which permit 
Bureaus to remedy any investigative delays.
    In December, we will start delivering more than 70 sessions of 
bystander intervention and intergenerational training in strategic 
locations across the country. Each session will be 4 hours in duration 
and be presented to in-person audiences. We continue to communicate 
with and train leaders and employees everywhere and at every level of 
the organization about the Department's commitment to preventing and 
eliminating harassing conduct and cultivating work environments that 
are respectful, collaborative, fair, and honest. As recently as August 
2019, we delivered a briefing to senior leaders within the Bureau of 
Indian Affairs in Albuquerque, New Mexico. Following today's hearing, I 
will be taking part in a town hall meeting in Reston, VA with 
approximately 1,000 employees from the U.S. Geological Survey on DOI 
actions to improve and transform the workplace culture.
    Secretary Bernhardt and the Department of the Interior are fully 
committed to building upon the critical activities accomplished in the 
last 2 years to fundamentally transform the way that employees interact 
with each other in the Department. As an agency, we have made 
significant progress in acknowledging and understanding and eliminating 
harassing conduct, holding employees and their managers accountable, 
and setting clear, enforceable standards of behavior.
    Our efforts are both widespread and determined to change the 
culture here at the Department. There is more to be done, and we look 
forward to continuing our positive progress. Thank you and I am happy 
to answer any questions.

                                 ______
                                 

Questions Submitted for the Record to Susan Combs, Assistant Secretary 
   for Policy, Management and Budget, U.S. Department of the Interior
                    Questions Submitted by Rep. Cox

    Question 1. Of the 12 organizational risk factors laid out in the 
Task Force report, which are most apparent--and most urgently in need 
of redress--at DOI?

    Answer. As a large organization, the Department faces many of the 
challenges and confronts many of the risk factors that were discussed 
at the hearing and in the Task Force report, including decentralized 
workplaces; significant grade differences within units; and, due to the 
widespread locations of our offices, cultural and language differences 
in the workplace. At the Department we are addressing the cultural 
problem from the bottom up and the top down, through civil training for 
our employees; creating and improving avenues for communication; and 
increasing diversity in the workforce.

    Question 2. The final report of the Workplace Environment Survey 
was dated September 29, 2017. The NPS results were released on October 
13. But the rest of the DOI results came out 2 months later, on 
December 14, in the media shadow of the upcoming holiday season. Why 
were they released separately and why was there a 2-month delay?

    Answer. After several damning Office of the Inspector General 
reports that confirmed the prevalence of sexual harassment at the Grand 
Canyon National Park and other National Park Service worksites, the 
Department of the Interior made it a priority to analyze and release 
the National Park Service Work Environment Survey (WES) results prior 
to the release of the Department-wide results. Thereafter, the 
Department-wide WES results were analyzed and posted December 14, 2017 
on a new external website that included resources on harassment, 
discrimination, and retaliation and bureau leaders were tasked with 
developing formal action plans within 45 days to specify the actions 
they plan to take to address their organizational WES results, the 
schedule for accomplishing those actions, and a description of how they 
will assess the success of those actions.

    Question 3. How does a pervasive sexual harassment problem affect 
DOI's ability to achieve its mission?

    Answer. The Department is committed to preventing and eliminating 
all forms of harassing conduct and to transforming our workplace 
culture so our employees feel safe, respected, and valued. The EEOC 
Task Force report generally discussed the costs of such harassment--
direct and indirect--on the workforce, including costs associated with 
investigations, legal engagement, and potential damage awards, as well 
as less direct costs, such as reduced employee morale and productivity. 
Departmental employees have sent a clear message that respect, 
teamwork, honesty, and fairness are values that they expect to 
experience in their workplace. We have made significant progress in 
acknowledging, understanding, and eliminating harassing conduct, 
holding employees and their managers accountable, and setting clear, 
enforceable standards of behavior, though we recognize there is more to 
be done.

    Question 4. Many experts suggest organizations should 
``democratize'' efforts to address harassment. In other words, 
employees from all levels of the workplace should have input in 
crafting ways to address harassment. This should also include victims 
and survivors, if they so choose. Have there been efforts to engage 
field-level employees in anti-harassment efforts? Have there been 
efforts to engage victims in anti-harassment efforts? For example, are 
field level employees being included on the Workforce Culture 
Transformation Advisory Council?

    Answer. Every bureau and many offices within the Office of the 
Secretary have a career, field-level, anti-harassment point of contact 
who attends monthly meetings to learn about progress the Department is 
making and share best practices at the field level. These employees 
also transmit information from these meetings to employees in their 
bureaus. Employees, including victims of harassment, also have the 
opportunity to become involved in various ways to improve the workplace 
culture, such as joining an employee resource group, becoming an 
employee Ambassador, or a diversity change agent. In recognition that 
employees may not want to be or feel singled out, or that they might 
fear retaliation or retribution, we do not specifically target victims 
to join different groups. In addition to the various methods for 
engagement, DOI has multiple resources available for employees who have 
experienced harassment such as the Employee Assistance Program, the 
Victim Assistance Program, and a cadre of dedicated ombuds 
professionals for each of the bureaus. While the Workplace Culture 
Transformation Advisory Council comprises the highest level of bureau 
and Departmental leadership so that it can direct policies and allocate 
resources, many field level employees opt to join one of the 
Department's many Employee Resource Groups where they can network and 
collaborate with like-minded employees who share similar backgrounds or 
interests. We have also launched an extensive Bystander training 
program so that field level employees feel empowered to intervene when 
they witness inappropriate behavior.

                  Questions Submitted by Rep. McEachin

    Question 1. Please provide the following:

  1a.  Current roster of the Workforce Culture Transformation Advisory 
            Council.

  1b.  Website for the Workforce Culture Transformation Advisory 
            Council.

  1c.  The wording of the six questions about harassment that were 
            included in the 2019 Federal Employee Viewpoint Survey.

  1d.  The results for the six questions about harassment that were 
            included in the 2019 Federal Employee Viewpoint Survey.

  1e.  The wording of the four-question survey to which you referred 
            during the hearing that was administered to all DOI 
            employees in April 2019.

  1f.  The results of the four-question survey to which you referred 
            during the hearing that was administered to all DOI 
            employees in April 2019.

    Answer. The Advisory Council was created in February 2019 and is 
chaired by the Assistant Secretary for Policy, Management and Budget. 
It comprises the Assistant Secretaries, Deputy Assistant Secretaries, 
and bureau directors (question a). More specific information about the 
Council and its activities can be found at the Advisory Council's 
website (question b): https://edit.doi.gov/employees/
culturetransformation/advisory-council.
    The requested information (questions c-f) about the employee 
surveys can be found here: https://edit.doi.gov/sites/doi.gov/files/
uploads/wpctac-index-handouts-19august-complete.pdf.

    Question 2. During the hearing, Ms. Chai Feldblum acknowledged that 
while the Federal Employee Viewpoint Survey is a good way to annually 
survey employees about harassment, re-administering the Workplace 
Environment Survey and conducting focus groups and/or interviews would 
be ideal. She also strongly cautioned against comparing the results 
from the two different surveys and said that you must conduct the 
Workplace Environment Survey again to truly measure progress since 
2017. Will you commit to conducting the Workplace Environment Survey 
again this fiscal year?

    Answer. The Department must balance a number of factors as we work 
to provide an environment free of discrimination and harassment. As I 
said in my statement for this hearing, the Department has had a good 
response rate to the Federal Viewpoint Survey, but we also recognize 
that there is much more to be done. We look forward to continuing this 
positive progress in the future.

                                 ______
                                 

    Mrs. Dingell. Thank you very much.
    The Chair will now recognize Ms. Feldblum.

 STATEMENT OF CHAI FELDBLUM, PARTNER AND DIRECTOR OF WORKPLACE 
CULTURE CONSULTING, MORGAN, LEWIS & BOCKIUS LLP, WASHINGTON, DC

    Ms. Feldblum. Thank you, Madam Chair and Ranking Member. 
Thank you for the opportunity to testify. My name is Chai 
Feldblum. I am a partner in the law firm of Morgan, Lewis & 
Bockius. From 2010 to 2019, I was a Commissioner at the EEOC, 
the Equal Employment Opportunity Commission.
    My testimony and the answers to questions you may have 
reflect my views, and not necessarily those of Morgan, Lewis or 
its clients.
    During my time as a Commissioner of the EEOC, I worked with 
my fellow colleague, Commissioner Victoria Lipnic, to study how 
employers might prevent harassment. Although Commissioner 
Lipnic and I came from different political parties, we were 
joined in our commitment to stopping and preventing harassment, 
which is truly a bipartisan issue.
    In June 2016, Commissioner Lipnic and I published a 
comprehensive report on how to respond to harassment when it 
happens, and how to prevent it from happening in the first 
place. I have submitted that report as part of my written 
testimony.

    Here are five key take-aways from the report:

    (1) Leadership. The best way to stop harassment in the 
workplace is to have a culture of safety and respect in which 
harassment is not tolerated. Leaders have the ability to create 
such a workplace. They need to do three things. First, leaders 
have to believe that harassment should not occur in their 
workplaces. Second, they have to articulate that belief and the 
expectations that follow. And third, they have to act in a 
manner that makes their employees believe they are authentic.

    (2) Accountability. Let's be real. The most important steps 
that leaders can take to establish that they are authentic when 
they say they don't want to have harassment occur is to hold 
people accountable. First, individuals who have been found, 
after a full and fair investigation, to have engaged in 
harassment must be disciplined, and corrective action must 
always be proportionate to the misconduct. Second, managers who 
see or receive reports of harassment must be held accountable. 
Those who ignore complaints or who blame the person coming 
forward must be disciplined. Those who respond appropriately 
should be rewarded. And, finally, anyone who retaliates against 
someone who has reported harassment, or participated in an 
investigation must be disciplined. If individuals are allowed 
to retaliate, people will not come forward.

    (3) Risk Factors. I was pleased to see that the IG's report 
encourages the Department to look at the risk factors we had 
delineated in the EEOC report. Let me just mention three here. 
First, decentralized or isolated workplaces. An agency can have 
the best policy or procedures at headquarters, but in 
decentralized workplaces, individual supervisors often reign 
supreme. And in isolated and remote workplaces with only a few 
employees, that is an additional risk factor. Second, a young 
workforce. Young workers may not even know what is unacceptable 
in a workplace. Young workers who are themselves managers may 
not know how to respond to harassment. And third, high-value 
employees. Allowing a toxic employee to act with impunity, 
regardless of how valued the employee is otherwise considered, 
has significant costs to an agency.

    (4) Reporting, Investigations, and Training. Sort of pretty 
basic here. An agency must make it easy and safe for those who 
experience harassment or who observe harassment to report those 
incidents. This includes having multiple reporting avenues, 
responding in a manner that make employees feel it is worth 
reporting, and keeping employees safe from retaliation. And in 
terms of training, one needs both the basic anti-harassment 
training and respect for workplaces and bystander intervention 
training.

    And, finally (5) Culture. Ultimately, stopping harassment 
depends on having a workplace culture that doesn't tolerate it. 
The Work Environment Survey undertaken by the Department is an 
exemplar of an effort to assess one's culture. And if it 
continues to be done, that will provide important trend data 
for the agency.
    I find in my practice at Morgan, Lewis that it is 
particularly effective to pair surveys with focus groups and 
interviews of randomly selected employees. That can provide 
greater and more nuanced insights into the culture of an 
organization.
    In conclusion, I hope the ideas I have presented here will 
assist you in your important oversight of the Department of the 
Interior's efforts to stop harassment in its diverse locations. 
Thank you for your attention, and I look forward to answering 
your questions.

    [The prepared statement of Ms. Feldblum follows:]
Prepared Statement of Chai R. Feldblum, Partner and Director, Workplace 
             Culture Consulting, Morgan Lewis & Bockius LLP
    Thank you for giving me the opportunity to testify in this 
important oversight hearing. My name is Chai Feldblum. I am a partner 
at the law firm of Morgan, Lewis & Bockius LLP and the Director of 
Workplace Culture Consulting at the firm. My practice consists of 
advising clients how to create safe and respectful workplaces in which 
harassment of any kind is not tolerated and in which employees will 
perform to their fullest potential.
    I am pleased to offer ideas and insights for your consideration as 
you engage in your important oversight of the Department of the 
Interior with regard to its efforts to stop and remedy sexual 
harassment. This testimony and any answers I may provide in response to 
questions reflect solely my views and not necessarily those of Morgan 
Lewis or its clients.
    I served as a Commissioner of the Equal Employment Opportunity 
Commission from 2010 to 2019. During that time, I worked closely with 
Commissioner Victoria Lipnic to study how employers might prevent 
harassment before it happened. Although Commissioner Lipnic and I come 
from two different political parties, we were joined in our commitment 
to find ways to stop harassment. Prevention helps everyone--employers 
and employees.
    Commissioner Lipnic and I convened a Select Task Force on the Study 
of Harassment in the Workplace from 2015 to 2016. The Select Task Force 
included management attorneys who counseled and defended employers with 
regard to harassment claims; plaintiff attorneys who brought claims of 
harassment on behalf of individual employees and classes of employees; 
representatives from both employee and employer associations, and 
academics who had been studying the phenomenon of harassment for 
decades.
    The Select Task Force hosted a series of public and private 
meetings. The testimony received by the Select Task Force ran the gamut 
from data on the prevalence of harassment to promising practices on 
reporting and investigations to big picture ideas for changing 
workplace culture to minimize the risk of harassment.
    In June 2016, Commissioner Lipnic and I, together with our 
dedicated staff, wrote and issued a comprehensive report drawing on the 
insights we had learned during our work with the Select Task Force. I 
am attaching a copy of this report, the Co-Chairs Report on the Study 
of Harassment in the Workplace, as part of my written testimony. In 
addition, all of the testimony that the Select Task Force received can 
be accessed here. [Add url.]
    It is obviously of key importance to ensure that illegal 
harassment, including illegal sexual harassment, does not take place in 
any workplace. However, the best way to prevent illegal harassment is 
to have systems in place that stop low-level misconduct that might not 
yet rise to the level of illegal conduct. Hence, the recommendations in 
our Co-Chairs' report are designed to stop unwelcome behavior based on 
any characteristic protected under Federal or state laws (such as race, 
sex, religion, national origin, disability, age, sexual orientation or 
gender identity), even if such conduct does not yet violate those laws. 
The report, and my testimony, refer to these behaviors as 
``harassment.'' In addition, some employees engage in bad behavior 
toward others, even though the behavior is not based on any protected 
characteristic. Those individuals are equal opportunity harassers. The 
report, and my testimony, refer to such behavior as ``bullying.'' 
Finally, even low-level disrespectful and rude behavior can be a 
``gateway drug'' to harassment or bullying. Hence, employers should 
have in place systems that stop all forms of these behaviors.
    Together with Sharon Masling, my lead counsel at the EEOC, I 
recently joined the law firm of Morgan, Lewis & Bockius LLP to take the 
recommendations we had set forth in the Co-Chairs Report on the Study 
of Harassment in the Workplace about harassment prevention and advise 
businesses and organizations on how to stop harassment before it 
happens. Here are five key takeaways from the report, as supplemented 
by the work Sharon Masling and I have been doing as advisors to 
clients.
Leadership
    The best way to stop harassment in the workplace is to have a 
culture of safety and respect in which harassment or bullying are 
understood to be unacceptable and are not tolerated.
    Leaders, including leaders of a large government agency, have the 
ability to create such a workplace.
    First, leaders must believe that harassment or bullying is 
unacceptable in any workplace that they lead. Everything flows from 
this first basic belief and value.
    Second, leaders must articulate their values and expectations. 
Never under-estimate the power of the written and spoken word. If 
leaders begin an all-staff meeting talking about their commitment to a 
workplace free of harassment and bullying, that will send a message.
    Third, leaders must act in a manner that make their employees 
believe these leaders are authentic. The leaders' values and 
expectations cannot simply remain words printed on paper or delivered 
at meetings.
Accountability
    The most important step leaders can take to establish their 
authenticity is to hold those who undermine the stated values and 
expectations accountable for those actions.

    There are three groups of individuals that leaders must hold 
accountable.

    First, individuals who have been found, after a fair and thorough 
investigation, to have engaged in harassment or bullying must be held 
accountable. It is particularly important that any corrective action is 
proportionate. While some forms of harassment, including sexual 
harassment, will be grounds for termination, not every act of 
harassment (particularly low-level harassment that is not yet illegal) 
will justify termination. In a fair and effective system, the 
corrective action is proportionate to the misconduct.
    Second, supervisors who see or receive reports of misconduct must 
be held accountable for responding appropriately to such information. A 
supervisor who trivializes such behavior or sweeps complaints under the 
rug, and does not follow the procedures set up the employer to address 
such misconduct, should receive corrective action. Conversely, 
supervisors that respond well should receive positive reinforcement. 
The best way to hold supervisors accountable is to include in a 
supervisor's performance evaluation an assessment of how the supervisor 
responded upon seeing or receiving reports of harassment or bullying.
    Third, anyone who retaliates against an individual who reported 
harassment or bullying or who participated in an investigation of such 
misconduct, must be held accountable. If individuals are permitted to 
retaliate with impunity, few people will want to come forward with 
complaints and give the employer an opportunity to fix the problem.
Risk Factors
    The EEOC report included information on 12 risk factors that can 
lead to harassment. The presence of one or more of these risk factors 
does not mean that harassment will be happening in the workplace. They 
are simply factors that leaders who are interested in being proactive 
in stopping harassment would do well to study. For example, if a 
government agency knows that one or more risk factors exist in the 
varied workplaces that make up the agency, the leaders of that agency 
can analyze those risk factors and take preventive measures in 
response.

    Here are four risk factors that might be relevant to the Department 
of the Interior:

    <bullet> Homogenous workplaces. In workplaces where women, people 
            of color, religious minorities or people with disabilities 
            are not well-represented, the risk of harassment increases. 
            The best long-term response to this risk factor is to 
            increase the diversity of the workplace. In the short-term, 
            it is particularly important that individuals in such 
            workplaces understand that harassment will not be tolerated 
            and that people who report misconduct will be protected 
            from retaliation.

    <bullet> Decentralized and isolated workplaces. A government agency 
            may have the best policy and procedures at its 
            headquarters. But in decentralized and isolated workplaces, 
            individual managers or supervisors often have much greater 
            control over the culture of that workplace. Having 
            mechanisms to assess how supervisors have dealt with 
            complaints of harassment in those workplaces, and holding 
            such supervisors accountable through performance 
            evaluations, are essential in dealing with this risk 
            factor.

    <bullet> Mundane tasks/boredom. When employees are engaged in 
            repetitive or mundane tasks, they may engage in 
            inappropriate behavior--including inappropriate jokes and 
            various forms of sexual harassment--as a way to pass the 
            time. If such behavior has been the norm in the workplace 
            for a length of time, it may be particularly hard to change 
            that culture. However, if proportionate corrective action 
            is taken, a change in behavior will usually follow.

Reporting and Investigations
    An agency cannot take corrective actions against those who engage 
in harassment, or hold supervisors accountable in performance 
evaluations for not responding appropriately to reports or observations 
of harassment, if they don't know about those incidents of harassment. 
Agencies must therefore have mechanisms that make it easy and safe for 
those who experience harassment, or those who observe harassment, to 
report those incidents.
    An effective reporting system has multiple avenues through which 
employees can report. It is best if employees can report to their own 
supervisor, to another supervisor, or to the agency's human resources 
office. The EEOC recommends that government agencies designate an 
individual as a Harassment Prevention Coordinator who can deal with 
complaints of harassment.
    Agencies must also ensure that individuals who report harassment 
are protected from retaliation. Obviously, individuals should be told 
that if they experience retaliation, they should report that as well. 
But there is no reason for the onus to be solely on the individual. An 
agency can put in place mechanisms to oversee what happens after a 
report of harassment is made--particularly in a decentralized or 
isolated workplace.
Training
    Training to stop harassment is an essential component of a 
comprehensive effort to create a safe and respectful workplace. But 
that training will be most effective if it is integrated into an 
overall campaign to stop harassment that includes the components 
described above.
    The EEOC Co-Chairs report lays out the variables that are important 
for a foundational anti-harassment training. Those variables are set 
forth in a user-friendly checklist that can be used by any government 
agency, including the Department of the Interior.
    But agencies can go beyond that basic anti-harassment training. The 
EEOC Co-Chairs report recommended that employers provide respectful 
workplaces training that is not focused on unwelcome behavior based on 
legally protected characteristics (such as sex or race), but rather is 
focused on giving employees the skills to affirmatively create a safe 
and respectful workplace for everyone. Several years ago, the EEOC 
developed and has been providing a Respectful Workplaces training to 
government agencies and private employers.
    Sharon Masling and I have developed similar training at Morgan 
Lewis that we now offer to our clients. The training teaches employees 
how to give feedback when they experience unwelcome behavior and how to 
receive such feedback. If misconduct can be stopped early through such 
feedback, that is the best outcome. The training also educates 
employees have to be active bystanders in helping to stop harassment. 
For supervisors, the training provides skills in responding to 
complaints of harassment in a constructive manner and in coaching 
employees who are engaging in problematic behavior.
Cultural Assessments
    A significant proactive step that leaders can take to create a safe 
and respectful workplace is to assess the existing culture in their 
workplaces.
    The EEOC's Co-Chairs' report recommended that businesses and 
organizations perform climate surveys to assess the state of their 
workplace culture. Over the past year, we have refined that 
recommendation in various ways.
    First, employers often deploy general employee engagement surveys 
that ask questions about a range of workplace issues. The Federal 
Government's Federal Employee Viewpoint Survey (FEVS) is an example of 
such a survey. OPM could modify the FEVS to include questions about 
feeling safe, respected and valued in the workplace, as well as 
questions regarding harassment and bullying. Even before OPM undertakes 
such a change, agencies are permitted to ask OPM for two questions 
specific to the agency. The Department of the Interior could ask to 
include specific questions as to whether employees would know what to 
do if they experienced harassment, including sexual harassment, and if 
they would feel comfortable reporting harassment that they have 
experienced or observed.
    There are also more sophisticated assessments that can be done in a 
targeted fashion. For example, we have developed at Morgan Lewis a 
short 20-question survey focused on safety and respect. The survey can 
also include an open-ended question seeking narrative input. We offer 
that survey to clients who wish to do a short, targeted assessment. The 
best assessment, however, also includes focus groups and/or interviews 
of randomly selected employees. Then qualitative data collected from 
these efforts offer even greater insights into the culture of the 
organization.
Conclusion
    Stopping harassment depends on having a workplace culture that 
simply does not tolerate harassment. Everyone from the top to the 
bottom of an organization can play a role in creating a workplace in 
which not only harassment, but also bullying and even rude behavior, is 
not countenanced. In such a workplace, everyone benefits and everyone 
thrives.
    But ultimately, leadership is key to achieving a safe and 
respectful workplace in which harassment is simply not tolerated. I 
hope the ideas I have presented in this testimony will assist the 
Committee in its oversight of the Department of the Interior's efforts 
to stop harassment throughout its diverse locations.

                                 *****

The following document was submitted as a supplement to Ms. Feldblum's 
testimony. This document is part of the hearing record and is being 
retained in the Committee's official files:

  --  U.S. Equal Employment Opportunity Commission, Select Task Force 
            on the Study of Harassment in the Workplace, Report dated 
            June 2016.

                                 ______
                                 

     Questions Submitted for the Record to Chai Feldblum, Partner,
                      Morgan, Lewis & Bockius LLP
                     Questions Submitted by Rep Cox
    Question 1. Of the 12 organizational risk factors laid out in the 
Task Force report, which are most apparent--and most urgently in need 
of redress--at DOI?

    Answer. I am not well-versed in the specific worksites of the 
Department of the Interior. Based on my general knowledge, however, the 
following seven risk factors identified in the 2016 EEOC report may be 
relevant: (1) homogenous workplaces; (2) a young workforce; (3) 
workplaces with ``high value'' employees; (4) workplaces with 
significant power disparities; (5) workplaces with monotonous work or 
tasks of low-intensity; (6) isolated workplaces; and (7) decentralized 
workplaces. Depending on a particular worksite, the following 
additional four risk factors might come into play: (1) workplaces with 
some employees who do not conform to workplace norms; (2) workplaces 
with cultural and/or language differences; (3) workplaces that rely on 
customer service or client satisfaction; and (4) workplaces that 
tolerate or encourage alcohol consumption. Coarsened social discourse, 
the twelfth risk factor identified in the 2016 EEOC report, can apply 
to any workplace.

    Question 2. What is the best way to know whether an organization's 
efforts to change the culture are working?

    Answer. The best way to know whether an organization's efforts to 
change its culture are working is to collect quantitative and 
qualitative data about the organization's culture, both prior to and 
following the efforts that are undertaken. Quantitative data can be 
collected through targeted survey questions that focus on safety, 
respect, diversity and inclusion. Qualitative data can be collected 
through focus groups and interviews of randomly selected employees. To 
get the best information, the same survey questions and interview 
questions should be used over time.
    The success of culture change efforts should not based on the 
number of complaints of misconduct that are filed after such efforts 
have been undertaken. If a workplace in which it previously felt unsafe 
to report misconduct becomes a safe workplace to report because of 
culture change efforts, one should expect and welcome an increased 
number of complaints as an initial matter. Over time, however, that 
number should decrease. If it does not, that becomes cause for concern.

    Question 3. Would it be redundant for the Federal Employee 
Viewpoint Survey to ask questions about sexual harassment while 
Interior also conducts a full Work Environment Survey every 2 years?

    Answer. It would not be redundant if the Federal Employee Viewpoint 
Survey (FEVS) asked questions about harassment (of all forms) of all 
agency employees. Indeed, if OPM did so, the Department of the Interior 
could benchmark itself against other agencies. However, to determine 
changes in the experiences and views of Department of the Interior 
employees, one must compare answers to the same questions over time. 
For that reason, one cannot compare answers to a question in the FEVS 
that is similar to a question in the Work Environment Survey. The 
difference in the answers may result from how the question is asked or 
the context in which it is asked.

    Question 4. How does a pervasive sexual harassment problem affect 
DOI's ability to do achieve its mission?

    Answer. I am not versed in the intricacies of DOI's many 
obligations. However, as the 2016 EEOC Report made clear, when 
harassment of any kind is left unchecked, it will adversely affect job 
satisfaction, productivity and retention. These are all elements that 
are key to achieving the mission of any job.

                                 ______
                                 

    Mr. Cox [presiding]. Once again, we thank the witnesses so 
much for being here.
    I understand the gentlelady from Michigan has a scheduling 
consideration, so we would like to recognize her for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Ms. Feldblum, this Committee put out a report on sexual 
harassment issues in Interior in early 2018. The Committee 
relied heavily on the Task Force on Sexual Harassment, for 
which you were the co-author. We want to personally thank you 
for all of your hard work on the report, because it was 
invaluable.
    But in your testimony, you mentioned that there are certain 
risk factors that may put an organization at a heightened risk 
for sexual harassment to occur. The Committee's report examined 
data that showed that several of these risk factors do exist at 
Interior, including non-diverse workforces, significant power 
disparities between men and women, geographically isolated 
workplaces, and decentralized workplaces.
    Although the Committee didn't have access to data sources 
that could help determine whether the other risk factors exist 
as well, it is possible that they do. Do any of the other risk 
factors come to mind when you think about Interior?
    For example, the Grand Canyon case features a high-value 
employee, and the Park Service has had a lot of young, seasonal 
employees. So, I would be interested in your feedback.
    Ms. Feldblum. Sure. One of the key things Commissioner 
Lipnic and I did with the task force--there was a select task 
force on the study of workplace harassment--was thinking about 
how to be proactive to stop harassment before the EEOC showed 
up at the doors of the employer.
    And one thing was to consider risk factors. And just 
because there is a risk factor doesn't mean harassment will 
occur, it just means leaders need to think proactively. And we 
had 12 risk factors, and you noted a number of them.
    I do think the young workforce is a real key risk factor. 
And the training needs to be customized to that young 
workforce. I think what we called in the report the Superstar 
Harasser, which is simply the harasser that is considered of 
high value, a top performer--which, of course, is a logical 
fallacy in that. You can't be a top performer if you are 
causing harassment and people are leaving.
    So, I think power disparities, diversity, homogenous 
workplaces with just a few women, people of color, that is a 
problem. I commend the Department for what it is doing already, 
and urge you to look at that report.
    Mrs. Dingell. Thank you.
    Mr. Greenblatt, your report highlighted the risk factors as 
an area for Interior's bureaus to explore in their action 
plans. Can you tell us more about that?
    Mr. Greenblatt. Yes. As we were going through our analysis, 
we recognized that the subject matter experts had done their 
presentation. And we thought that would be helpful for the 
various bureaus. Some of them did include that in their 
individual action plans.
    And what we were recommending is that the remaining bureaus 
that hadn't considered the EEOC's risk factors, to look at 
those. And there is no reason for them to recreate the wheel, 
when you have the subject matter experts laying out the risk 
factors that they should consider.
    Mrs. Dingell. Thank you.
    Ms. Combs, given the importance of these risk factors in 
planning an organization's effort to address harassment, how is 
Interior planning to implement the Inspector General's 
recommendations?
    Ms. Combs. Well, I have a timeline and we are, obviously, 
on track with all of those.
    But I want to sort of address it at a higher level, which 
is really about culture, civil training for leaders. We 
launched that in April 2017, and we demanded within a 2-year 
period that all supervisors be given that training in person, 
around the globe. And that has been done. As of February, 9,000 
supervisors had been trained.
    Second, it was made part of their individual performance 
standards. There are 13,114 supervisors, and they all now have 
that embedded in their performance standards.
    Third, training. We have a contract with a third-party 
vendor who is going to do online training for all 70,000 
employees, and that will be customized to the various bureaus. 
That will be customized across the Department. And we, of 
course, welcome input on that. And that will probably happen 
late summer. It is going to take us some time to do that. 
Starting next week, there will be 72 4-hour segments. As I 
mentioned, we will be training about 2,160 people.
    So, we are trying to do this from sort of bottoms up, as 
well as top down. And the Workplace Culture Advisory Council, 
which I chair, has all of the assistant secretaries on it, all 
the deputy assistant secretaries, the bureau leadership, and we 
make it a point to say that this is very, very important 
throughout the Department.
    Mrs. Dingell. Thank you. I am down to 7 seconds. I am going 
to take a point of a personal moment, which is to say that at 
the top, people have to protect people who come forward. They 
can't be viewed as troublemakers. So, even when people go 
through the motion of addressing the problem, but they are 
still totally ostracized in the workplace, nobody hires them, 
nobody promotes them because they are labeled as troublemakers, 
that is still too real in workplaces not just at Interior, but 
across the country, in corporations, et cetera.
    So, leaders have to lead on making sure that doesn't 
happen. Thank you, Mr. Chairman.
    Mr. Cox. Thank you so much. The Chair will now recognize 
the Ranking Member for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chair. And personally, I can't 
imagine anybody considering Congresswoman Dingell a 
troublemaker.
    But anyway, I am curious. And we do appreciate your work, 
Inspector General. You mentioned that somebody is in jail 
today. Could you tell us a little more about the facts of the 
case? I think it is helpful for people out there that may be 
tempted to act similarly.
    Mr. Greenblatt. This was a situation of a supervisor who 
was making untoward advances, physical advances on another 
employee while they were in a remote location. And that 
included laying on top of her at one point. And this was 
totally inappropriate in every way.
    Mr. Gohmert. I would say, and hopefully people will get the 
message. That is just unbelievable to me, that that could even 
happen.
    I am hopeful that having superiors closer to the people 
that are out there doing the work may also help stem the tide 
of those type of activities. And we have noted previously 99 
percent of all the land that the BLM controls is west of the 
Mississippi. And I am sure there are a lot of people that are 
quite comfortable here in Washington that are not looking 
forward to going to Grand Junction. I think it is great. And my 
understanding is there will actually be supervisors closer to 
the people with whom they are working. Is that correct, 
Secretary Combs?
    Ms. Combs. Yes, sir. And in fact, two things are important. 
When the new policy bulletin was issued in 2018 it said a 
person can complain to any supervisor anywhere. Because of the 
remoteness issue, you can't be trying to address your 
supervisor who may or may not be the bad person. So, that was 
an important change.
    And I would say, second, with the move west of the Bureau 
of Land Management staff, getting decision makers out in the 
field where they can take hold of things immediately is, 
obviously, desirable, and it does make a difference.
    And from that perspective, I work with the field special 
assistants. There are 12 of those. I had a conversation with 
them just last night, and they are appointed by the Secretary, 
and they are in all the regions, and they understand their role 
in this particular matter. And they were talking with the human 
resources people yesterday from 3 to 4, and I talked to them 
from 4 to 5. I thanked them for all of their work, and I said, 
``You are leaders in your region, and you represent all the 
bureaus.'' And I said, ``I expect you all to help continue 
making this effort to go forward.''
    So, they shared with me that they have been having--they 
have executive councils in the region made up of all the 
leadership of all of the bureaus in the particular region, and 
they meet regularly. And I said that I would be sending them 
some of the materials that we have.
    I think this group of individuals--except for two, they are 
all career individuals, and they truly embrace and understand 
their role as collaborating between bureaus. They are not 
representing a bureau, they are representing the Department of 
the Interior. And it is their job, absolutely, to effectuate 
these policies that are so important.
    I would say, on a personal basis, this makes a big 
difference to me. I launched a women's empowerment group in 
2015 after I left state service. I have a 4-year-old 
granddaughter. And I am not letting anybody get in my 
granddaughter's way. I will just give fair warning.
    But this is important. Chairing this council has been both 
a privilege and a pleasure. So, I welcome input, I welcome 
advice, because there is nothing more important that we can do 
to create a respectful workplace where people feel valued and 
that they are heard. If they speak, we listen.
    Mr. Gohmert. Well, I appreciate that. And you have looked 
at Ms. Feldblum a few times as you spoke. So, I am sure you 
have a great deal from her study, her report.
    And one of those things in her report was that strong 
leadership is identified as a key factor in effectively 
addressing harassment in the workplace. How are current leaders 
at the Department of the Interior demonstrating their 
commitment toward strong leadership?
    Ms. Combs. Well, Secretary Bernhardt also has a daughter, 
and he and I have chatted about women, and he has given me all 
the budget that I have needed for this effort. He has given me 
the resources. He has issued messages. And when he goes around 
the country, he talks about these efforts and how he wants to 
transform the Department of the Interior.
    And he is a longtime hand at the Department, and I think 
people know that he is a sort of WYSIWYG, what you see is what 
you get. He is very, very linear.
    Mr. Gohmert. Thank you very much. My time has expired.
    Mr. Cox. Thank you so much, Ranking Member. And I will 
recognize myself for 5 minutes.
    Ms. Feldblum--and thank you to Mrs. Dingell for reading my 
opening statement--but in that testimony we have seen example 
after example of low morale and distrust in current leadership 
among Interior employees.
    One of the most egregious examples is the very recent 
abrupt announcement that the BLM, the Bureau of Land 
Management, is going to be moving its headquarters out west to 
Grand Junction, a place that is relatively isolated, a small 
town in Colorado. This Committee did a hearing exposing the 
sham that is that relocation. A predictable effect is that 
employees who are going to be made to uproot their lives with 
very little notice are upset.
    In a recent article, employees were said to be questioning 
the wisdom and the ``moral courage of leadership.'' Early in 
this Administration, over two dozen senior employees were 
suddenly reassigned to different duties and locations. When the 
OIG asked them about who was chosen to be reassigned and why, 
DOI tried to cover it up. And these reassignments sent a clear 
message to all Interior employees: Step out of line, and you 
will suffer.
    Ms. Feldblum, in your experience, is it possible to fully 
address an organization's systematic culture problems with 
sexual harassment if the workforce doesn't trust its top 
officials?
    Ms. Combs. Thank you, Chair.
    Mr. Cox. Oh, sorry, Ms. Feldblum. And then I will have you 
speak to that as well, Ms. Combs.
    Ms. Feldblum. Yes. So, obviously, I don't know the 
information about the Department of the Interior, itself. I 
will say that it is important to have a culture of respect all 
the way across in an organization, and that is respect in terms 
of encouraging people to come forward with their opinions, in 
being able to raise their concerns. Because if you have that 
overall culture of respect, then it will be easier for people 
to come forward with their complaints about harassment, as 
well.
    So, again, I don't know specifics of the Department of the 
Interior. I can say the social science is clear that people 
need to feel respected and valued in order to feel comfortable 
coming forward with complaints.
    Mr. Cox. Great. Thank you. And Ms. Combs, it is the 
Committee's understanding that the BLM plans to proceed with 
the transfer, despite the opposition of the affected employees. 
And, in fact, some have speculated that this move is just a 
tool to get employees unhappy enough to quit.
    How is Interior going to regain the trust of these 
employees after this move takes place?
    Ms. Combs. Well, I am not in charge of the move from the 
Bureau of Land Management, but I will say at the overall 
Interior level I would echo the comments made about we do have 
to have sort of an open society. We do have to have open 
conversations. We do have to have a culture of respect.
    And we issued four questions last April, to which we got 
about 11,000 responses. The folks at the Department said they 
wanted to be heard, they wanted to feel respected, and that 
they liked the Department, but that they wanted to be engaged. 
So, what we believe is that our bystander intervention, our 
inter-generational training, all of these things which we are 
engaging with these employees, and then the online harassment 
training is going to be helpful.
    With respect to the move, as I say, I support the move 
because I think, from a policy perspective, when all of the 
land is in the West, I think it is important that you have the 
decision makers at the local area.
    So, again, I am not in charge of the BLM move, but I would 
agree with your comment that, yes, it is important to have an 
open conversation with the people that you are supervising.
    Mr. Cox. Do you think moves like these, that are really 
made without consultation with the employees that are unhappy 
about that move, it doesn't lead to much buy-in from them. Do 
you think that creates a culture of distrust amongst senior 
leadership with the employees?
    Ms. Combs. Well, again, I don't know the particulars about 
who is or is not happy with the move. I do know that this was a 
thought-out process, from what I have been told from BLM, for 
about 2 years, and they evaluated and they took a look at 
selecting Grand Junction--and I have actually been to Grand 
Junction, and I kind of like the city.
    Mr. Cox. Have you ever seen the rationale for that move?
    Ms. Combs. Have I ever seen the business case for the move?
    Mr. Cox. The business case and the rationale for that move.
    Ms. Combs. Well, I believe there is a business case for the 
move, absolutely.
    Mr. Cox. Have you ever seen it?
    Ms. Combs. I have seen a draft business case for the move. 
Yes, sir, I have.
    Mr. Cox. Well, this Committee would like to see it, as 
well, some time.
    That brings me to the balance of my time for this round of 
questions, and I recognize the Ranking Member once again.
    I beg your pardon, and thank you. Beg your pardon. I will 
recognize Mr. San Nicolas.
    Mr. San Nicolas. Thank you, Mr. Chair.
    Ms. Combs, just some observations in your testimony. The 
awareness of employees, in terms of where to report harassing 
conduct was at 62.3 percent in 2017, and it went up to 94 
percent in 2019. What was done to increase that awareness for 
the employees?
    Ms. Combs. Policy Bulletin 1801 was issued in April, and it 
was very prescriptive, and it went to all employees, and it 
held all of the human capital employees responsible. And, as I 
say, it was followed up with the training performance standard 
that came in the fall.
    I would say that the timeline that is in place right now, 
within 1 day, within 24 hours, if there is a complaint made, 
there are several steps that have to be taken within that 24 
hours, and people understand they will be held accountable for 
that.
    I would also add that the I-MART tracking system, people 
understand that there are timelines in place, and those will be 
followed.
    What I think was actually another reason for this, I think 
the report that came out in 2016 was so horrible, it was such 
an eye opener, and I think people were just astonished and 
shocked at what had happened to those folks in Grand Canyon and 
elsewhere. And I think it prompted the kind of soul searching 
that, obviously, should have taken place earlier. And I am very 
sorry to hear about the event that Mr. Greenblatt has referred 
to last night, recurring last night. I just think it is a 
constant repetition that has to take place, and people have to 
be held accountable, which is why there is this training, the 
civil training for leaders, that covered 9,000 people. And that 
was face-to-face, and that was around the globe. Then we went 
to Guam and Hawaii to meet people face to face, to impress upon 
them this is serious. We are taking this seriously. And I think 
that has an effect.
    So, the new trainings that are coming on, I think those are 
important, and people want them. We are getting great response. 
People say, ``Yes, we want to be trained, and we look forward 
to being heard.''
    Mr. San Nicolas. I just wanted to observe--I think that it 
is a really good thing that the awareness thresholds have gone 
up that dramatically.
    And I also think it is a really good sign that the 
instances dropped, while the awareness increased. I think that 
that shows that the agency has been doing a very good job of 
targeting the high-risk areas and addressing those high-risk 
concerns, because when awareness is only at 62.3, and you have 
a 35 percent reporting rate, and then it goes up to 94 percent 
and you have an 18 percent reporting rate, then that shows that 
the problems are really being tackled.
    So, I just wanted to kind of highlight that, and get an 
idea of why the thresholds were so low to begin with. Do we 
know why there was such a lack of awareness back in 2017?
    Ms. Combs. I think there was an unfortunate culture that 
didn't encourage people to feel heard. I mean, the data from 
the Workplace Environment Survey made that clear. You read the 
statistics and it is very troubling. I think you have to do a 
major course correction. And I think that is what they have 
done.
    But it is never over. And I would sort of give, as an 
example, who would have thought 20 years ago, or 15, that 
online bullying would be the kind of problem that it is today? 
We weren't ready for it. So, online misbehavior is a threat 
anyplace, and person-to-person is a threat.
    What I also found interesting in the workplace report was 
that the peer-to-peer was about 54 percent in an office, face 
to face, one on one. So, it wasn't outside, it wasn't at a 
party, but a lot of it was just peer to peer. It wasn't even 
supervisors, which that struck me as it wasn't so much power 
disparity as it was people just saying things.
    And that is why the bystander intervention is so important. 
We had a very high number of people saying stop. And even if 
the victim didn't say it, the bystander did. So, we are working 
on enhancing the bystander intervention training, and that is 
going to be 2 hours of all these sessions across 72 sessions. 
We think that is going to be helpful.
    Mr. San Nicolas. Well, I thank you very much. And I hope 
the trend continues. And once the awareness is already at this 
kind of a level, of course, getting it to 100 percent is always 
ideal. But bringing these trends further down is, of course, 
the target. And I am hopeful that we are going to be able to 
see more implementation of the IG report in the future.
    Thank you, Mr. Chair, and I yield back.
    Mr. Cox. Thank you, Mr. San Nicolas. And the Chair will now 
recognize our Ranking Member.
    Mr. Gohmert. Thank you, Mr. Chair. And it is nice when we 
have bipartisan goals that align with each other.
    I am curious, Inspector General. How do you intend, going 
forward, to get the word out to people? And I realize it may 
not be fully your responsibility, but you can certainly have an 
effect by getting the word out to people about somebody going 
to jail and having serious consequences as a result of these 
inappropriate actions.
    Mr. Greenblatt. Sure. Well, moments like this are certainly 
helpful in that regard.
    One thing that is critical is that the victim reported the 
issue right away, and then the supervisors reported it to the 
OIG, and we took it all the way to the----
    Mr. Gohmert. There was no hesitance in reporting it?
    Mr. Greenblatt. I didn't hear you.
    Mr. Gohmert. There was no hesitance in reporting it 
forward. Sometimes we have a delay, and that contributes to the 
problem, when there is any delay at all in reporting.
    Mr. Greenblatt. Certainly, but we will----
    Mr. Gohmert. By a supervisor going upward.
    Mr. Greenblatt. Certainly. We will take all the cases. That 
is certainly helpful, when they come as fast as possible. In 
this case, it went right away. She went the next day to her 
supervisors, and they came straight to the OIG, and we pounced. 
So, this is one way that we can sort of spread the word, as you 
said.
    We also want to stay on top of it, in terms of conducting 
investigations. As I said, we have eight active cases. We are 
going to continue. We are also going to work with the 
Department and help oversee their efforts in terms of training, 
and ensure that folks know that they can come to the OIG or the 
departmental avenues that they have made available. And we can 
help evaluate the nature of the training that is going out to 
all the employees, as Ms. Combs mentioned. That is a way that 
we can stay involved, going forward.
    Monitoring the investigations, the quality of the reports 
that are coming forward in the investigations--that is one 
thing we found in this report, is that there is a sufficiency 
problem with the investigations that the Department was doing, 
or it was contracting for, they weren't legally sufficient. So, 
then the agency, the Department, couldn't take action because 
the underlying investigation, the report wasn't of a good 
enough quality to take action on. That is one thing where we 
can add value, as well.
    So, I think there are a number of different routes that we 
can add value. But spreading the word is certainly something 
that we are engaged on, and trying to do as much as possible.
    Mr. Gohmert. Yes. Secretary Combs, having been a felony 
judge, we have seen times when there was instant outcry by a 
victim, and then not always immediate action. And it seems to 
go hand in hand with what Ms. Feldblum was talking about, 
strong leadership. How do you intend to get the word out to 
supervisors that they cannot delay, they must move forward if 
there is a report of inappropriate action?
    Ms. Combs. The policy is they shall turn it around in 1 
day. They shall report up to their supervisor. They shall 
contact the lawyers, and they shall contact law enforcement, if 
necessary, or OIG. That is a 24-hour period. And that is not 
flexible. It is 24 hours, period.
    Mr. Gohmert. Well, that is excellent.
    Ms. Combs. And I would say, also, I used to be a 
prosecutor, and I used to handle child abuse cases, and I am 
well aware that you have to have legally sufficient evidence.
    Mr. Gohmert. And I understand that. We also heard the 
report that the previous administration, the Department of the 
Interior had not been meeting the EEOC requirements. Is 
Interior now meeting the EEOC requirements?
    Ms. Combs. Well, we are in, obviously, good consultation 
with the EEOC, and our policy has met all of their 
requirements, and meets their model policy. And our training, 
we run those by the EEOC, and they approved them, our latest 
round of training, to be Department-wide within 24 hours. So, 
yes, we are in constant touch with them.
    Mr. Gohmert. Thank you. Again, thank you all for being here 
today. I appreciate not just your being here, but the work you 
have been doing on this important issue.
    I yield back.
    Mr. Cox. Thank you, Ranking Member.
    Ms. Combs, in your testimony, you referred to some of the 
findings from the Federal Viewpoint Survey that showed positive 
results and Interior's progress in rooting out harassment in 
the Department. And that is, obviously, great news.
    But I do want us to be cautious about declaring victory 
prematurely. And I am sure, as you well know, comparing results 
from two different surveys could be problematic. And from what 
I understand, the Federal Viewpoint Survey that was conducted 
earlier this year and the Work Environment Study that Interior 
conducted in 2017 are two completely different survey 
instruments, and that small changes in wording, and how the 
survey is conducted, or when the survey is conducted, can have 
significant effects on the findings of that survey.
    That is why members of this Committee have repeatedly asked 
Interior to repeat the Work Environment Study that was 
conducted in 2017. I think we feel that that will be the only 
truly accurate way to determine whether or not progress has 
been made since then.
    That being said, I certainly want to commend Interior's 
efforts to include questions about harassment in that Federal 
Viewpoint Survey. And I am very interested to see the exact 
wording of the questions that were added. Would you be willing 
to provide those questions and the findings from those 
questions to us?
    Ms. Combs. Yes. And let me also add that I think I am going 
to try to ask OPM to put these questions in everybody's survey. 
I think if we have hundreds of thousands of Federal employees, 
I think we need to get the baseline established with the FVS.
    We have a very good participation rate. We had the second-
highest participation rate on these FVS of any department over 
50,000. We had about 58 percent participation, which means they 
wanted to be heard. So, that was quite good.
    So, I think, if we could get OPM to include these questions 
on all surveys, all FVS, I think that would be a good step 
forward for the entire Federal Government.
    Mr. Cox. Yes, that would be a fantastic step forward. I 
commend you for that. I would be a little concerned that it is 
already not coming down from the top, and no disrespect there.
    Ms. Feldblum, in your testimony, you talked about the 
importance of using climate surveys to assess the culture of an 
organization. And, again, adding questions to the Federal 
Viewpoint Survey is a great start, but could we address sexual 
harassment more thoroughly and quickly with the recurring Work 
Environment Survey?
    Ms. Feldblum. Absolutely. I mean, I was just struck by how 
good this Workplace Environment Survey was that the Department 
of the Interior did. I have seen many surveys. I have created 
some myself. Very good survey.
    And that is why I think one has to be careful to say 35 
percent said they experienced harassment based on that survey, 
and then using the 18 percent from another survey. You really 
have to be careful about that. But I think the best, obviously, 
would be to have that Workplace Environment Survey repeated at 
the Department of the Interior.
    But from my perspective, this hearing could end up being a 
phenomenal success, right from the fact that if Assistant 
Secretary Combs does get to OPM and ask for those questions--
when I was a commissioner at the EEOC, I went to them 
constantly, asking for those questions to be added to the 
Federal Employee Viewpoint Survey. From the EEOC we were told 
we could have two for the EEOC, so we put in two about 
harassment and culture. I am amazed that Interior got six. I 
guess they were bigger than EEOC.
    But what would be amazing is if the leadership of OPM put 
these questions in for all the agencies. And then, what would 
be even better is if the Department of the Interior did its 
Workplace Environment Survey again, and so did other agencies.
    Mr. Cox. Yes, to a certain extent, that is what I was 
mentioning before.
    We have about a minute left here. Ms. Combs, I am very 
interested about the Workplace Culture Transformation Advisory 
Council that you had mentioned. Can you give us a little bit 
more color on that?
    Ms. Combs. Yes. This is something that I created because I 
was worried about sort of the culture. And I wanted to have 
this thing be very granular, so we have all of the bureaus 
participate. And Tammy Duchesne, who is a former National Park 
Service person, she was very involved in some issues there at 
the National Park Service. She is leading that, and she is 
right now on her way out to USGS. She has already been to 
Albuquerque, she is traveling around to the Bureau of Indian 
Affairs, and she is sort of talking about this.
    And we had done a four-question survey last April, which 
was--let's see, we got over 10,200 responses, which I thought 
was pretty wonderful, in about a week and a half. We will do 
one again this spring, and that will be assessing how we are 
doing. So, we think we are making progress.
    Mr. Cox. Great. Thank you so much. The Chair will now 
recognize Mr. San Nicolas once again.
    Mr. San Nicolas. Thank you, Mr. Chair. I will go ahead and 
yield the balance of my time to yourself.
    Mr. Cox. Thank you so much. I will recognize myself again, 
and to follow up a little bit more about the Workplace Culture 
Transformation Advisory Council.
    And if you would continue on that, I would love to hear 
more about that.
    Ms. Combs. Yes. We have a website and that was launched 
this morning. We had it already, but it is up for the public 
now. You go to DOI.gov/employees/transformation, I think. And 
it is a way for us to sort of talk to everybody across the 
Department.
    And what we are doing is we are having points of, what I 
call the points of contact. We are meeting all the time. We are 
sending out messaging. We are sending out slide decks that can 
be used all across the Department. And what Ms. Duchesne is 
doing is she is putting together teams from all of the various 
bureaus, and giving them guidance on communication, et cetera.
    We have a communications individual working on this. 
Obviously, the chief human capital officer is very supportive, 
and she is spearheading all of the training, the 72 4-hour 
sessions on bystander intervention and inter-generational, that 
is her baby, which starts next week. We are trying to do this 
from a variety of areas. And she is also the one that has put 
together the team to go ahead and do the all-Department 
training.
    So, we are pushing this at various levels. Some people like 
in-person training, some people prefer online. They may not 
want to be face to face with you, but we are trying to push all 
of those. And that is just for the next few steps.
    Mr. Cox. Great. And how are you measuring baseline, and 
then the progress toward your goals?
    Ms. Combs. The baseline?
    Mr. Cox. Baseline of your culture and progress toward the 
transformation to improve the workplace culture.
    Ms. Combs. The baseline that we are using right now, the 
one we just got, is the FVS. That is a baseline which because 
it will be the same survey, it will continue forward.
    We are also getting input, people that have the ability to 
e-mail us. But the main thing is you do have to get the input 
in from the individual employees on how things are doing. So, 
we think that the FVS is a great tool. And, obviously, it is a 
tool, it is not the only tool, but it is a tool. And it will be 
repeated, and it is free, which we like.
    Mr. Cox. Great. Thank you so much.
    Inspector General Greenblatt, in your report, one of the 
main findings had to do with the cost of harassment 
investigations. And at Interior, individual officers are 
currently responsible for bearing the cost of those 
investigations. Unfortunately, that means some of the smaller 
offices and bureaus may be hit especially hard by a 
particularly costly investigation. The report mentioned that 
this could have a ``chilling effect'' on offices when it comes 
to investigations.
    One of the report's recommendations was to implement a 
system for bureaus and offices to share costs, so that no one 
office is unreasonably burdened. Can you tell us a little bit 
more about that finding?
    Mr. Greenblatt. One of the concerns we heard--and we don't 
have any data on this, this is more of a theoretical issue at 
this point, but it is a ripe issue that could arise--is if you 
are in a smaller office, and there is a complaint that comes 
forward, and that office then has to bear the cost, that could 
impact their training, that could impact their ability to carry 
out their mission. So, therefore, there is a concern that if 
there are employees in a smaller office, they may be less 
willing to come forward and incur that cost on their own 
office, be it the survivor, the victims themselves, or a 
witness may be reluctant to come forward.
    At the same time, we understand, from the Department's 
response, that some of the bureaus want to hold those local 
managers accountable by making them pay for investigating that 
misconduct.
    So, there is a balance there that the agency has to weigh. 
But one of the things we wanted to identify is that chilling 
effect is a real concern, especially for the more remote 
locations that may have a smaller budget, which an 
investigation could then impact in a significant way.
    Mr. Cox. Ms. Combs, in your response to the Inspector 
General, this is one recommendation that you only partially 
agreed with. You concluded that keeping investigation costs 
local may serve as a way to keep the managers, supervisors in 
those offices, accountable for not creating the right 
environment to prevent harassment.
    Doesn't making local offices bear the burden of the 
investigation costs create a disincentive to investigating 
these cases?
    Ms. Combs. Well, I think the Inspector General is correct. 
See, we are approaching this from two perspectives. We are 
going to be looking at the working capital fund being used as a 
vehicle which spreads the cost across the Department, as well 
as December 1, our new third-party vendor comes in with a fixed 
cost plan. That third-party vendor, that award will be given on 
December 1. So, we will have sort of two approaches.
    Mr. Cox. Great. Thank you so much. The Chair will now 
recognize Congressman San Nicolas once again. He waives. And 
the Chair will recognize myself once again.
    Thanks so much, Ms. Combs.
    Ms. Feldblum, do you agree? Is it a good idea to use 
investigation costs as a way to, essentially, punish managers 
and supervisors for not flushing out all the instances of 
harassment?
    And could this strategy actually disincentivize managers 
and supervisors from conducting investigations?
    Could this discourage employees from reporting incidents of 
harassment?
    Ms. Feldblum. Yes. I think it is very important to 
incentivize managers to not have harassment in their 
workplaces.
    It is not a good idea to do the incentives by, for example, 
saying we are going to see how many harassment complaints are 
coming out of your division, because then the managers can 
subtly and not so subtly tell people, ``I don't want to hear, 
and then I don't have to show that I have complaints coming 
out.''
    Same thing is to say you are going to have to bear the 
cost, and you are worrying about what that might do to your 
other mission goals. That is not a good idea.
    So, I am encouraged by what Ms. Combs just said, move the 
cost to some central fund, get a good outside company that is 
doing the investigations at a set cost that, hopefully, will 
not come out of their budget. But then hold them accountable on 
how safe they have made the environment, how many complaints 
are coming forward, have they been dealt with, and put that in 
their performance evaluation. That is going to be the best 
approach.
    Mr. Cox. Great. Thank you so much.
    And back to the EEOC task force report, which you co-
authored. Other expert resources contend that a lack of 
diversity in an organization and harassment often go hand in 
hand. Can you give us a little bit more information, color on 
that?
    Ms. Feldblum. Well, I think some of this is probably common 
sense, right? If you have 10 men in a workplace, and then 1 
woman comes in, or 10 white people in a workplace and 1 black 
person comes in, and you have just even 1 or 2 of those people 
starting to harass that new person, and no one else intervenes, 
that is a problem, right?
    I mean, it is almost common sense. It is just that the data 
shows that it is actually true. So, obviously, you have to 
change the diversity of that workplace setting, and you have to 
change the diversity up at the top, so people know that there 
are leaders who are people of color and are women, and that 
makes a difference.
    I will say I am thrilled to hear about these 70 bystander 
intervention trainings that you all are doing. I actually feel 
one of the contributions we made in the EEOC report was to 
bring this concept of bystander intervention to the workplace. 
People were not talking about that. But in our research we saw 
that universities and campuses were using bystander 
intervention to train students how to intervene to stop sexual 
assault before it happened by distracting someone, pulling them 
away, by directly intervening, by telling someone about it 
afterwards.
    And we said maybe we could apply this to the workplace. 
Obviously, the power dynamics are different in the workplace 
than student-to-student, so the intervention training--and we 
offer that from Morgan Lewis, as well--has to take into account 
the power dynamics, and what is a reasonable option for 
intervening.
    But if you do that, and if the leadership on the top tells 
people, ``We want you to intervene,'' that is huge. And paying 
for bystander intervention training is one way of communicating 
that, and then supporting bystanders who do intervene, like 
acknowledging them, recognizing them--let's make the Department 
of the Interior a model for the other departments by the work 
of your Subcommittee, and IG. That would be nice.
    Mr. Cox. Well, thank you so much for that, because that 
does bring rise to, really, kind of my next question.
    The Western Values Project found that, among the 104 
political appointees at DOI, women only represent 28 percent. 
And among the 221 board appointees, women make up only 25 
percent. The rest of the workforce at Interior is pretty male-
dominated, women generally making up about 40 percent of all 
Interior employees.
    So, is that an issue at all that women are making up such a 
small proportion of leadership?
    And, certainly, if you have the time, I would like you to 
comment on the racial and ethnic diversity. Is it similarly 
important to have people of color represented in positions of 
leadership when it comes to combating harassment?
    Ms. Feldblum. Certainly. It is essential to have women, 
people of color, and people with disabilities in positions of 
leadership. Again, that takes intentional strategic plans.
    At Morgan and Lewis, I ran a whole diversity inclusion 
practice, helping employers to get from here to there. It is 
not easy, but it is absolutely doable.
    Mr. Cox. Thank you so much.
    And Ms. Combs, I certainly would love your input and 
thoughts on that, because former Secretary Zinke didn't seem to 
agree, frankly, with Ms. Feldblum. He made several comments, 
``Diversity isn't important, I don't care about diversity. I 
don't really think that is important anymore.''
    And, certainly, as Acting Secretary that oversees the 
Office of Human Capital, Office of Civil Rights, do you agree 
with these statements?
    And what is Interior going to do to recruit more people of 
color and women into positions of leadership?
    Ms. Combs. This is a great conversation. I am glad to have 
it, because I think, certainly, my shop at the Policy, 
Management and Budget is very, very diverse. But it is hard 
sometimes to get people into a Department which is perceived as 
maybe not so diverse.
    So, we have just launched on October 1 something called the 
Career Path. And it is novel. We had a woman from the National 
Science Foundation come up, and what we are trying to say to 
people is please come to the Department, there are all kinds of 
things to do. If you are here, you are not going to be stuck in 
your job. There are career opportunities.
    We are approaching this from two ways. One is you can plug 
your name in, and you can talk about the kind of background you 
already have. And it will say, well, gosh, Myrtle or Bob, you 
might be eligible for these. Or you can say, would you like to 
be--you plug in the job and say, how would I get there?
    And the response from the Department of the Interior 
employees has been fantastic. They want more opportunities. 
They want more jobs. And I think we are going to be adding 95 
more positions to be talked about, so people will want to come.
    And, obviously, STEM is a problem all across the country. 
And you have girls who code, et cetera. We want to be sure that 
we give the employees the opportunity to take learning--DOI 
University, the DOI Learn, is very, very useful.
    But we are reaching out, and we are talking across 
government. In fact, the principal Deputy Assistant Secretary 
for Policy, Management, and Budget is leading an inter-
governmental issue on career path and getting people to want to 
stay and make a permanent career out of Federal service, which 
we think is a noble calling, and understand that there are 
opportunities.
    So, there is diversity in jobs, there is diversity in 
people, there is diversity in opportunity. And we want people 
to walk in the door--by the way, their initial training when 
they come in now, they are given all of the anti-harassment 
training, they are told from Day 1 on the job that this is the 
culture here, and you are going to have to subscribe to it.
    So, we are trying it across a bunch of fronts, and we will 
keep on working.
    Mr. Cox. Thank you so much. And once again, thank you all, 
the witnesses, for coming in today.
    One final question for all of you. Very simply, is there 
anything else you would like to say today that you haven't 
already had the opportunity, the chance to say?
    Mr. Greenblatt?
    Mr. Greenblatt. Just reiterating that we stand ready to 
help survivors and witnesses of misconduct. We encourage them 
to come forward, either to the OIG or to the Department. And to 
the extent we can add value going forward, we look forward to 
the opportunity to do so. Thank you.
    Mr. Cox. Great. Thank you.
    Ms. Combs?
    Ms. Combs. Well, I am delighted to be here, and I am very 
pleased that this is such a bipartisan effort and approach. 
And, as I said earlier, we much appreciated Mr. Greenblatt and 
his team's report.
    But there is much to be done, we look forward to doing it, 
and we will not rest.
    Mr. Cox. Thank you so much.
    And Ms. Feldblum?
    Ms. Feldblum. Well, I highly commend you for putting 
together this hearing. Thank you for the opportunity to see how 
some of the EEOC report recommendations have been carried out. 
And I truly hope that it can go from this room out to many 
other agencies, and that you can encourage your colleagues to 
look at other Federal agencies, as well.
    Mr. Cox. Thank you so much. That is a sentiment and a goal 
for all of us.
    Once again, I want to thank all the witnesses for being 
here today.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of the Hon. TJ Cox, Chair, Subcommittee on Oversight 
                           and Investigations
    The Department of the Interior has a sexual harassment problem. And 
the problem isn't new. For decades, women--and men--in our national 
parks, refuges, and other public lands and offices have not been given 
the protections they need to do their work free from harm. As we sit 
here, mere weeks after the second anniversary of #MeToo, addressing 
this problem is as critical as ever.
    In 2016, the Inspector General released a report that documented 
approximately 15 years of systemic sexual harassment and misconduct in 
Grand Canyon National Park. After that report was released, it was 
clear that this issue could no longer fall to the wayside. Interior 
needed to take major action.
    The Obama administration sent an anonymous survey out to all of 
Interior's approximately 70,000 employees--an unprecedented effort in 
the Federal Government. The survey was designed to get an idea of 
whether this was a problem limited to Grand Canyon and the Park 
Service, or whether it was more widespread.
    The findings were alarming--over one-third of all Interior 
employees had been harassed in some way in the past year. And nearly 1 
out of every 10 had been sexually harassed, including both men and 
women.
    These numbers are shocking on their own, but the survey dug even 
deeper. It found that three-quarters of employees who had been harassed 
chose NOT to file a report or complaint. They gave several reasons, but 
one of the top reasons was that they didn't think anything would be 
done about it.
    This is unacceptable. Both women and men deserve a workplace in 
which they feel safe, both physically and psychologically--and in which 
they believe something will be done if they are put in harm's way.
    Fortunately, this Administration has taken action--for which they 
deserve credit. Since the survey was released, Interior has revamped 
its policy, instituted new training, and required each bureau to draft 
a regularly updated action plan, among other efforts. These are all 
steps in the right direction.
    But this summer, the Inspector General released a report which 
highlights ways in which Interior can further strengthen those efforts. 
I look forward to hearing more about those needed changes and how 
Interior will dedicate the resources necessary to make those changes.
    But I also want to have a frank conversation today. While the right 
polices, procedures, and training are obviously important, they are 
only one piece of the puzzle. As we have heard from experts over and 
over again, addressing sexual harassment begins, first and foremost, 
with effective leadership.
    Leadership must not only SAY they are committed; they must SHOW 
that they are. They need to cultivate a culture that promotes diversity 
and inclusivity across all levels of the workplace, but especially in 
top leadership and management. They need to engage those who have been 
affected by harassment in helping to craft the organization's solutions 
to the problem.
    And perhaps most importantly, leadership needs to earn the trust of 
its workforce. Employees need to believe that their leaders will 
support them, stand up for them, and hold wrongdoers accountable.
    Unfortunately, that isn't the case at Interior. This Administration 
has been marked by secrecy and distrust. We have seen, time and again, 
both in the press and in testimony before this Committee, accounts of 
employees being manipulated, intimidated, and ignored.
    Most recently, the Bureau of Land Management abruptly announced it 
was moving its headquarters out West. Reports of a closed-door meeting 
with affected employees show that not one of the employees supported 
this move. One employee even said, ``morale is as low as I've ever 
seen.''
    At a Full Committee hearing this summer, a whistleblower from 
Interior testified that this Administration has, ``sidelined scientists 
and experts, flattened the morale of career staff, and by all accounts, 
is bent on hollowing out the agency.''
    A mass reassignment of senior employees in 2017 created a culture 
of fear for stepping out of line.
    None of this sounds like leadership that is committed to earning 
the trust of its workforce. And if workers do not trust that their 
leaders even value them, how can we expect them to trust that their 
leaders will protect them in their most vulnerable moments?
    Making public statements is easy. But making real change in 
addressing an issue as challenging as sexual harassment takes trust, 
engagement, and genuine leadership. We hope Interior's leadership will 
take that message to heart today.

                                 <all>
</pre></body></html>
